No._ _ _ __

Jn tltbe
S5>upreme ~outt of tbe ltntteb S5>tates
RUDOLPH CARRYL,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 26th day of August,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
AmyE. Ray
OFFICE OF THE
UNITED STATES ATTORNEY

United States Courthouse
100 Otis Street, Room 233
Asheville, NC 28801
(828) 271-4661

Counsel for Respondent

Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Samuel B. Winthrop
Counsel of Record

WINTHROP

& GAINES MESSICK, PLLC

706 Hartness Road
Statesville, NC 28677
Telephone: (704) 872-9544
Facsimile: (704) 872-7712
sam@winthrop-law.com

Counsel for Petitioner
Signed and subscribed before me on this 26th day of August, 2020.

.

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. #7241026
Commission Exp. 4/30/2021

